                          BOARD AND CARE





        f.RVICl$.
                    VJ'




'0


     :)/i"d3:a



OFFICE OF INSPECTOR GENERAL
OFFICE OF EVALUATION AND INSPECTIONS
                                            MARCH 1990
                 BOARD AND CARE





                    Richard P. Kuserow
                    INSPECTOR GENERAL




OEI-02-89-0186                           MARCH 1990

                                    .............
                                               ................  ....... ...................
                                                  ........................
                                                            "...........
                                                 .....................   .......             ......... ...... ......
                                                                          ....................................
                                                                            .....................                    .... ...
                                                                                                                ..........




                                                TABLE OF CONTENTS


EXECUTIVE SUMMARY

NTRO DU CTIO N .... ................................................. .................................8............8..... 1


PU R P~S E .............       .................................................................................................... 1





B AC KGROUND ................................................................................................. .."8...                                 1





M ETHO DOLOG Y ......................... ...8................................ ...................".....................                                3


FI N DI NGS.     ................ .... .....                                    ......................................................... 4

      Although State Standards Adequately Address Certain Basic Safety

      and Service Requirements, Weaknesses Exist in

      Other Important Areas                                      ...11.... ......... 4


      While States Conduct Basic Enforcement Activities,

      Serious Weaknesses Exist .......................................................................11.... 10

      The DHHS Plays a Limited Role in Board and Care...........................                                                                   

R ECOM MEN DATION                                                                                                               II...... II. .11..... 17



      Co mments ..... ...... II......... ..11............ ..... ...... .......... ....... .11.............................. ..11.... 


APPENDIX A: 818 LIOG RAPHY                                                                        ................................ .... A -


APPENDIX B: COMMENTS ON THE DRAFT REPORT ........................... B - 1


APPENDIX C: CHARTS................... .................................... ................. ........ ...... C - 1

                               EXECUTIVE SUMMARY

PURPOSE

The purose of ths inspection is to assess existig   State board   and care reguations and
enforcement activity.

BACKGROUND

Board and car refers to nonmedcal community- based living argements providig shelter
foo, and protective oversight to a dependent elderly and disabled population. Over one
milon elderly and disabled individuals reside in boar and care facilties nationwide, and
their numbers ar increasing.

As an outgrowth of abuses in board and car facilties, the Congrss enacted the Keys
Amendment (Section 1616 (e) of the Social Securty Act) in 1976. It requis States to set
stadads that assur that Supplementa Securty Income (SSI) recipients do not reside in
substadad facilties. The Offce of Human Development Servces (OHDS) has the Federa
responsibilty for adminsterig the Keys Amendment and assurg that States have these
stadads in place.

The American Bar Association (ABA) developed " A Model Act Reguatig Board and Car
Homes: Guidelies for States " under an OHDS     grt
                                                 to help States develop standads to
improve conditions in the homes.

METHODOLOGY

Ths inspection included the followig activities: intervews with Federa offcials involved
with board and car; discussions with 70   State offcials in 50 States and the Distrct of
Columbia (DC) representig 72 State progrs involved with licensing and/or         certg
board and car facilties; analysis of curent stadads for each of the 72 progrs; and onsite
visits to seven locations involvig intervews with 26 providers, 15 provider or resident
advocates and several State offcials.

FINDINGS

Although Stale Standards Adequately Address Certin Basic Safety And Servce
Requirements, Weaknesses Exist In Other Importnt Areas.

Alost al State stadas addrss personal car        servces,   fIre safety, physical strctue,
sanitation and licensing. Only limited attntion is given to level of care needs of residents,
tring, dealing with unlicensed facilties, complaits and coordnation among responsible
agencies, providers and consumers.
Alost th- quarers of State respondents and more than the- quarers (80 percent) of
providers and advocates recommend a common set of national minimum standas. These
should include basic safety and servce requirments, ways to deal with unlicensed facilties,
sta  trg,     reuirments for dierent levels of care and coordination among responsible
agencies, providers and consumers. They feel that such stadads would create greater
unonnity and effectiveness in reguation and enforcement

While States Conduct Basic Enforcement Activities, Serious Weaknsses Exist.

Alost al States conduct inspections and issue con-ective action plans. Only about one-third
of State stadas provide intennediate sanctions such as assessing civi moneta penalties
and prohibitig   adssion of new residents to homes under citation. According to some
respondents, the absence of these sanctions restrcts   States '   enforcement capacity.

Whe most States have the abilty to revoke or deny licenses, less than hal        actually did so in
1988. Mor than one- thd of State    stada     provide for closing homes and removing
residents, but only 11 States actualy tok these actions or imposed any penalties or sanctions.

There ar a number of enforcement concerns which exist with regard to board and car.
Unlicensed homes ar one such enforcement concern. Ambivalence exists as to how these
homes should be penalzed Over the-quarers of State respondents cite consttnts to
effective enforcement. These include liited sta, a lengty legal process, insuffcient
fmancial resources, the absence of legal authority for sanctions and the lack of alternative
placement Close to hal felt their States assigned board and car a low priority. A majority
felt the Keys Amendment could not be enforced

The DHHS Plays A Limited Role In Board And Care And Limited Coordinatin Exists.

Activities afectig boar and care facilties and residents ar liited with HHS. The Offce
of Human Development Servces is responsible for adinisterig the Keys Amendment. The
States must noti the Social Securty Administration (SSA) of violations of the Keys
Amendment and SSA provides inonnation to States to assist in identig unlicensed homes.
The Adminstrtion of Developmenta Disabilties (ADD) and the National Institute of Menta
Health (NI)      both have protection and advocacy progrs administered by State agencies
or organations which may include residents of boar and car facilties. The Administrtion
on Agig (AoA) has an Ombudsman Progr which advocates the rights of the
institutional elderly includig residents in board and car facilties. The Health Care
Financing Admstrtion (HCFA) has a home and communty based waiver progr which
gives States the option to broaden the definition of " medcal assistace " under Medcaid if
States cert   compliance with Keys Amendment reuirements. These waivers may include
servces to board and care residents. The Assistat Sectar for Planning and Evaluation
(ASPE) has severa board and car initiatives curntly underway.
There is limited contact between these varous agencies within    IlS involved with board and
care; each unit functions independently and has litte awareness of relevant activities occunng
elsewhere in the Deparent

RECOMMENDATIONS

States should

           Re-evaluate their board and care standas especially in the areas of level of care,
           traiing, coordination and unlicensed   facilties.

           Improve their abilty to identiy and deal with    unlicensed   facilties and provide
           incentives for facilties to become licensed.

           Use such sanctions as civil moneta penalties, restrctions on new admssions and
           closing of homes.

           Assure that existing procedurs for resolvig complaits are sufficiently publicized
           so that complaits ar brought to the attention of the proper authorities.



To support Stats '   efforts in implementing the above recommendations, OHDS should
designate a unit for board and care which will

           Dissemiate information on such matters as operational efficiencies, effective
           enforcement techniques, researh and States ' best practices.

           Prmote more     effective use of the Model Act

           Prvide technical assistance to States, parcularly to support the standads and
           enforcement concerns highlighted in ths report

           Coordinate deparental activities relative to board and care.

 COMMENTS

 Comments on the draf report were received from HCFA, ASPE, AoA, PHS, SSA and OHDS
 and were generaly supportve of our findings and recommendations. While support was
 expressed for our recommendation that there be a Deparental coordinating unit, the
 question of fundig was raised by OHDS (See Appendi B). We continue to believe the

 problems addrssed in this report are suffciently important to   wart
                                                                   the relatively small

 expenditu necessar to support a coordinating u     it.

                                     INTRODUCTION


PURPOSE

The purose of this inspection is to assess existig   State board   and care regulations and
enforcement activity.

BACKGROUND

History

Board and car refers to nonmedical community- based living argements providig shelter,
food and protective oversight to a dependent population of elderly and disabled. These
facilties var widely in defInition , size, resident populations, fundig sources and servces
provided. The termnology for board and car facilities encompasses a broad range of titles
such as residential car, personal care, adult foster care, sheltered car, domicilar care,
famy homes, adult homes, group homes and assisted living. Board and care residents have a
wide range of demographic characteristics and needs; they include the elderly,
developmentay disabled and mentay impaid.

All States have regulations relatig to board and care. However, States use a varety
defInitions and a wide rage of size crteria to identiy these homes for licensing. The
defmition is usually based on the services provided rather than the anticipated needs of the
residents. A board and care home may be defined by a State as " a publicly or privately
operated residence that provides meals, lodgig and personal assistace to two or more adults
who ar unrlated to the licensee or admistrator. " In contrast, a nursing home provides
24- hour medcal care.

State regulations requir that al facilities which fit their definition of a board and car home
be licensed or certed. The license is issued to a specific licensee for a specifc facility and
cannot be trsfen-ed to a different licensee or facilty. The licensee is the person(s) who holds
the license to operate the facilty and is responsible for seeing that the licensing requirements
for the facilty ar met The licensee may operate and maintain the home or delegate those
functions to an admnistrator or manager.

Oversight and enforcement also var.   Within some States more than one agency has
responsibilty for board and care, differig usually with thetye of resident, size of the facility
and kids of services provided to the residents. The most prevalent agencies involved are the
Deparent of Social Servces, Deparent of Public Health and Deparent of Mental
Health and Retardation.

According to the House Subcommttee on Health and Long-tenn Car report, over one millon
elderly and disabled individuals reside in board and car facilties nationwide. Their numbers
are increasing due primarly to thre factors. The first is the deinstitutionalization of the
mentaly il in the 1960s which resulted in many of these people being placed in board and
care homes because they continued to require a sheltered environment. Second, the enactment
of the Supplementa Securty Income (SSI) progr in 1972 created a guarantee of payment
for owners and operators of these facilties. Lastly, a shortge of nursing home beds and other
long-term car services has resulted in more admssions to board and care homes.

Legislative Highlights

The Keys Amendment was enacted in 1976 (Section 1616 (e) of the Social Securty Act) as an
outgrowth of abuses in board and care facilties in the mid- 1970' s. It requires States to
 establish , maitai and insur the enforcement of standads " for residences where "
significant number" of SSI recipients reside or are liely to reside. It also has a penalty
provision which reduces a reipient s SSI payments if he or she resides in a facilty not
meetig State standards. This reuction is applied to that porton of the payment that is a
State supplement and only by the amount of the supplement that is used for medical or
remedial care. The legislative history reflects the concern of Congress that Federal SSI
benefits not be used to support substadad living facilities.

The Omnbus Budget Reconcilation Act of 1987 is likely to impact on board and care.
elinates (by October 1 , 1990) the Medicaid distiction between skilled nursing facilities
(SNFs) and intermediate car facilties (ICFs) and combines them into a single level , called
 nursing facilty," under Medicaid. Some ICFs that cannot meet the more sttngent
requirements for nuring facilties wil be downgrded to a lower level such as board and care.
As a result, residents presently in ICFs may no longer be eligible for nuring facilty car and
may become board and care residents.

HHS Role

A number of HHS components have responsibilty for board and car homes or their residents.
The Offce of Huma Development Services (OHDS) has the Federal responsibilty for
managing the Keys Amendment and seeing that it is implemented at the State level. The
Admnisttation on Developmental Disabilties (ADD), the Admnistrtion on Aging (AoA)
and the National Institute of Mental Health (NIM) each provide grts to States to operate
an Ombudsman or a protection and advocacy program for their respective client groups. To
help States locate board and car facilties, the Social Securty Admistrtion (SSA) provides
State Data Exchange (SDX) tapes which identiy addresses where      th  or more SSI recipients
reside. The Health Care Financing Admnistrtion (HCFA) issues waivers to broaden the
defmition of " medical assistance " under the Medicaid progr if the Keys statute and
regulations ar met.

 Prior Activities

 Concerns about the quality and services in board and care homes were highlighted in a prior
 Offce of Inspector General (OIG) study (1982) and, more recently, in both a General
Accountig Offce (GAO) study and a report issued by the House Select Commttee         on
Aging s Subcommttee on Health and Long- term Care (March 1989).

The American Bar Association (ABA) developed " A Model Act Regulating Board and Care
Homes: Guidelies for States " under an OHDS grant in 1984. This was intended as a
resoure document to help States develop and revise standads to improve conditions in the
homes. Fire and safety gudelies were also developed by an HHS interagency task force and
shared with the States. These guidelines were the result of a ten year effort and have been
incorporated in the Life Safety Code by the National Fire Protection Association. Curently,
there is a large evaluation being conducted of this system which is being jointly funded by six
Federa agencies.

METHODOLOGY

This inspection was conducted in thee par. Firt, Federa offcials with some responsibility
for board and care were intervewed to determe the level of activity within HHS.

Second, 70 discussions with State offcials were conducted in 50 States and the Distrct of
Columbia (DC). They represented 72 State program involved with licensing and/or
certyig board and care facilties (one person in 33 States, two each in 15 States and thre
each in 3 States; in 2 States one respondent spoke for two program). An effort was made to
identiy al agencies in each State with responsibilty for this function. Information was
obtaied regarding licensing, certfication and enforcement activities, and perceptions were
gathered regarding board and car regulations and their enforcement. Copies of curent
standads and licensing requirements for each of the 50 States and DC were obtaied and
analyzed agaist the Model Act, each other and exemplar State standads for commonalties
and varations.



Durg the th      par, on site visits were made to seven locations (California, DC, Georgia,
Michigan, Missour, New Jersey, and New York) selected on the basis of geographical
distrbution, recommendations from State and industr respondents and prior analyses.
Members of the team included a physical therapist and a registered nurse. Interviews were
held at 26 homes selected for severa reasons, including whether they cared for SSI recipients
or parcipated in demonstration program. The 26 homes represent a mix of diferent sizes,
services and types of residents served. Also interviewed were 15 advocates of providers or
residents and severa State officials involved with board and care. The interviews included
discussions of State standads, enforcement and problems in the industr.
                        ............................................................................
                                                                   . .. .. . . .. . . . . .. .. . .. . . . .. . .. . . . .




                                                      FINDINGS


ALTHOUGH STATE STANDARDS ADEQUATELY ADDRESS CERTAIN BASIC
SAFETY AND SERVICE REQUIREMENTS, WEAKNESSES EXIST IN OTHER
IMPORTANT AREAS.


States have made progress in carng out their responsibilties in board and care facilties
over the past few year. Alost all State stadads include basic safety and service
requiements such as personal car services, fIre safety, physical strctue, sanitation and
licensing. However, only lited attention is given to the level of care needs of residents;
trning; dealg with uncensed facilties; a complaints procedur requirement; and
coordiation among responsible agencies, providers and consumers. State standads were
compar to the Model Act to determe States ' conformty to key areas in the Act (Figue I).
See a State by State comparson to the Model Act in Appendi A.


                                       FIGURE I

                       State Conformance With Model Act Provisions




                 80" .
               11
                      88"
               100"
                                    88" 88" 82"
                                                          88ft
                                                                 88".
                                                                               .7ft...........................




    A - Definition of Board & Care                                   H - Residents ' Rights
    B - Physical Structure                                           I - Size Criteria
    C - Admissions Criteria                                          J - Training Requirements for Staff

    D - Administrator /Staff Qualifications                          K - Variance and Waivers

    E - Licensing Requirements                                       L - Complaints Procedures

    F - Enforcement Programs                                         M - Board & Care Plan

    G - Sanctions                                                    N - Unlicsed Facilties

Almost all State standads (over         95   percent) include personal care services, fire safety,
physical strcture, sanitation        and licensing.

                  Vinally all State stadas presently reuire the provision of minimal personal
                  car servces.    Most commonly, these include assistance with daily living activities
                  (94 percent), help with medications (96 percent), diet (96 percent), and supportive
                  servces (86 percent). All the standads addss sanitation , including foo
                  handling, laundr, water and sewerage. Alost all address the physical strctue
                  of the buildig, includig the architectual plans and fie safety. Most also deal
                  with residents ' rights (85 percent) and record- keeping (92 percent), although
                  usually in a lited way.

State standards do not adquately adress residnts ' needs.

                  According to almost half of the respondents, standads do not clearly distinguish
                  the level of care needed. They cited this problem most frequently. Respondents
                  report that while the original "Mom and Pop " facilities served a fairly
                  self-sufficient population , the medical and health needs of many residents are
                  increasing. One respondent stated, "The standards are not responsive to the change
                  in residents ' needs. " Another said, "We need to be more realistic with regard to
                  who lives in the homes. Homes with SSI and developmentaly disabled residents
                  ar very dierent than those with private- pay elderly. " While most respondents
                  cited this need for increased level of car, many mentioned diffculty in providing
                  these addtional servces due to the limited financial resources of board and care
                  residents who have only SSI benefits as income.

                  State standads do not meet the needs of the changing population in board and care
                  homes. Most stadads (68 percent)       restrct the   adssion of residents to homes if
                  they are physically or mentaly unable to evacuate the premises independently.
                  However, respondents report that some curnt residents do not meet this criterion.
                  Additionally, team onsite visits to homes showed residents who were wheelchair-or
                  bed- bound and others who cognitively would not be able to leave the home
                  independently. Also, alost hal of the State stadads do not restrct admitting
                  residents to homes without adequate resources to car for them. Thus, residents
                  with grater car needs may potentially be placed in facilties where their needs
                  cannot be met

                   Almost two- thirds of the State standads do not specifcally mention a board and
                   car plan, although thee-quarers require physician certcation upon admssion.
                   Such a plan is one way of planning and providing for different levels of car. Of
                   those standads which do addrss car plans, the great majority do not specify how
                   often the plan should be updated.
           Simiarly, case management (someone monitoring the needs of each resident) is
           noted in only 38 percent of the stadads, generaly with the developmentally
           disabled and mentaly impaied as opposed to the aged. The Model Act provides
           that each resident should have a board and care plan which is reviewed quarerly
           and which describes the abilty of residents to fuction in the home. One provider
           stated: "We need regulations which watch for the changing condition of the
           elderly patients and not just nitpickig of easy envionmenta issues.

           Over one- thd of State stadads do not addrss nursing services. Of those that do,
           over hal prohibit them. One respondent, representig a view often heard, said,
            There is no flexibilty for residents that requir acute car to remain in the home.
           In contrt, some felt that nursing servces were inappropriate for this level of car.
           One State is instituting a demonstration project that will enable residents who
           requi ongoing nursing car, such as catheter and colostomy car or insulin
           therapy, to live in board and car facilties.

           Resident level of car nees are rarly specifed in State definitions. A board and
           car facilty is usualy defmed based on the servces provided rather than the
           anticipated needs of the residents. Some State officials suggested that the
           defmition should include  both the nees of the resident and the servces provided.

Limited attention is given to staff training.

           Accordig to State respondents, staf trainig is the second most frequently cited
           problem. Both State and provider respondents often mentioned the changing needs
           of residents as a reason traiing is essential. Accordig to one State respondent,
           the lack of control of sta tring is a " vuerable area. " Many also noted that
           limited resoures and insufficient staff at the State level often constrain
           implementing existing trainig requirements.

           One- thd of State   stada do not addrss traig. The Model Act provides for
           specifc areas of traig for both admnistrtors and staf and suggests that the
           operator have training before being issued a license (which the States curently
           require). It also suggests that if a facilty is found to be out of compliance, the
           operator and staf should be given traiing in the areas where violations exist.

           Of the two- thirds of State stadards which do addess trning, thee- quarers do
           not specify the tye or hour of trning reuired. Generally, traiing requirments
           ar specified as being "in-servce" or "on-the-job. " Much of the trning is limited
           to first aid coures, genera orientation,   fi safety and foo handlng.
           Although most States give limited attention to training, six States reported
           innovative training programs. These include medication aide training, special
          progrs for working with the mentally retaded, seminars in different aspects of
          care by experts in relevant fields, and special training prior to being issued a
          license. One State uses the money derived from licensing to hold traiing
          progrs.
          Alost al States (93 percent) addrss qualcations and requirments of the
          adnistrator and staf. However, the requirements for both are extrmely limited
          and were cited as a problem area by numerous respondents. In many cases, the
          operator is required to be at least 18 years of age, have a high school diploma and
          be of " goo mora character. " A few States, however, are begining to require a
          bachelor s degree for the admnistrator and nurse s aide traiing for staff. Many
          say it is difficult to requir adequate qualfications for board and care staff since the
          pay is low and it is diffcult to recrit and keep employees.

State standards do not usually adess unlicensed/acilites and complants.

          Seventy- four percent of State stadads do not mention unlicensed facilties so they
          do not include a penalty provision for failure to comply with licensing
          requirements. Some respondents volunteered faiur to addrss these homes as a
           problem with their standads.

           Only 51 percent of State stadads require a complaints proedur, although almost
           al States report having such a procedure in place.



(The above two areas are discussed in more detail in the enforcement section of this report.

Coordinaton rarely occurs.

           Accordig to State respondents, coordnation was the thd most frequently cited
           problem area. Although almost two- thds of State respondents felt coordination
           between State agencies was adequate, only one- third of providers agred. Some
           providers said duplication of effort often occurs, with several agencies doing the
           same thing, such as investigatig complaints. One provider said, " People
           comig in al the tie. " Both State and provider respondents recommended the
           establishing coordnation units and strngthening communication.

           No State standads address coordation among responsible agencies, providers
           and consumers. The Model Act suggests a coordnating council , to include
           advocates, residents and providers, as a mechanism to assur coordination among
           the multiple State agencies responsible for regulating facilties and providing
           services to residents of these facilties. An analysis of State regulations conducted
           by Boston University in 1980 identified 77 agencies nationally that were
           monitorig board and care facilties. Our study revealed 72 agencies; 10 States had
         reuced their number of agencies and two States are combining two monitorig
         agencies into one. Five States have added agencies.

          A majority of States, providers and advocates felt coordination between States and
          the Federa government was lackig. Most stated that coordination did not exist.

Most respondents advocate a common set of minimum standards for      every State.


          Accordig to alost the-quarers (72 percent) of State respondents, a common set
          of miimum stadads should be federay mandated. Some felt that since some
          States were less active in board and car than others, minimum standards would
          crate grater uniformty in regulation and enforcement. Others mentioned that
          mium       stadads would alow for common expectations of safety and care in the
          boar and care industr. One respondent said that "every disabled and frail elderly
          person in this countr has a right to minimum standads, despite where they live.
          Numerous respondents, includig those in favor of minimum standads, said that
          were mium       stadads to be developed, States should be given the flexibilty to
          adapt and add to the standads to meet their parcular needs.

          Twenty-eight percent of State respondents did not favor a mandatory set of
          mium      stadads for States. Most felt that States should be alowed to establish
          their own regulations to alow for regional and local differences. One argued that
          since most State stada     have aleady been tred and found to work , only
          gudelies and suggestions concerng possible new topics and ideas should be
          provided. Some felt that mium stadards would only add another level of
          unnecessar governent buraucracy to the board and care industr; one stated
          that "people are monitored enough without someone else coming in. " Another felt
          that minimum standads would not assure quality of care in these homes any more
          than State stadads would.

          Eighty percent of providers and advocates agreed that minimum standards should
          be mandated for every State for many of the same reasons given by State offcials.
          They mentioned that national standads might serve to professionalize the industr
          and provide helpful guidelines to operators when settig up homes. A number
          expressed concern that minimum standas might become maximum standads in
          that States might choose not to elaborate upon them. Minimum standards might
          thus " give permssion " to States to do only the minimum requird.

          The majority of all respondents also felt that common definitions should be used in
          every State. Many believed it would be an impottt prerequisite to the
          development of minimum stadads.
      ...................................................
                                      ...................................................
                                    ......................
                                    ...-..................
                                                  ........                                                        ..............




               Respondents generay agree on key areas where miimum standas should be
               developed. These include basic safety and service areas and some aras not
               presently addressed, such as unlicensed facilties, trning and board and care plans
               (Figu II). However, the maner in which they are addressed vares from State to
               State. Supportg ths was the respondents ' frequently cited concern about faiure
               to adess          cert
                                 key aras in greater depth and with more clarty.

                            FIGURE II

 THREE KEY AREAS NOT SUFFICIENTLY ADDRESSED ARE RECOMMENDED

         FOR INCLUSION IN NATIONAL MINIMUM STANDARDS


             Board and Care Plan	                                                                         Training

109 	                                                                         109 ........................     Hi. 
               81S..' . . . .

89 ....................... .88". . . . . . . . . . . . . . . . 	              89 ......................

80.. ......................
                                                  89.''''''''.'.''''''''''

79 ......................

                                                                              80.. ....

811 ......................

                                                                              ISO" ....

ISO" ......................

                                                                              411 ....
                                                                              S9 ....
20.. ....

                                                                              29 ....
19 ....	                                                                      19 ....
        Standards              State
                         Recommendations
                                                         Providerl
                                                     Advocte
                                                                                       Standars               State           Providerl
                                                                                                           Recommendations Advocate
                                                  Recmmendations                                                          Recommendations




                                                      Unlicensed Facilities
                                        109
                                          8I ........................................ ' 88""".
                                          89 .......................................
                                          70.. .......................................


                                          89 .......................................

                                          1S9.""'.'."'"''''''''

                                          49 ......................

                                          29 ....

                                          19 ....

                                                      Standars          State             Providerl
                                                                   Recommendations        Advocate
                                                                                      Recommendations


 . Percentage of current State standards which address each area.
Model Act discusses key areas not adressed in State standards.

          The Model Act provides alternatives to States in those areas which respondents
          identify as being a problem with their standards, such as level of car, training,
          uncensed facilties and coordination.

          A majority of State respondents (51 percent) were unawar of the Model Act. A
          few respondents expressed keen interest when informed of it and asked where to
          obta a copy.

          Of those who heard of the Model Act, 35 percent used portons of it as a guide
          when preparg or updatig their individual State standads; 24 percent continue to
          use it as a reference tool.

WHILE STATES CONDUCT BASIC ENFORCEMENT ACTIVITIES, SERIOUS
WEAKNESSES EXIST.

Almost al State standas address inspections and corrctive action plans and States are
implementing these standads. However, problems exist in enforcement, both with unlicensed
facilties and facilties found out of compliance.

Almost all State standards adress   inspections   (94   percent) and corrective action plans (82
percent).

           As par of their licensing process, thee- quarrs of States inspect al homes at least
           once a year, some even more frquently.        The frquency   is often determned by the
           avaiabilty of sta and resources.

           A majority of States report at least some unanounced inspections. In hal these
           States all inspections are unannounced, whie in others they are conducted only
           when deemed necessar. However, just over hal requir that licensing inspections
           be unannounced. Many ar doing more than their stadards mandate, thus
           indicating that they perceive unanounced inspections as an effective enforcement
           tool. Most States (80 percent) also use spot checks as par of their enforcement
           activity. An analysis showed that unannounced inspections were conducted by
           States that have both strngths and weakesses in enforcement.

           Alost al States with standads for corrective action plans actually requird      such
           plans for the majority of their licensed homes in 1988. Many reported that few
           homes were ever without any deficiency. In most cases, the operators came into
           compliance after successfully implementing the plan. The violations ranged from
           the minimal, such as improperly storing a head of lettuce or missing a light bulb,
           to the more serious, such as lacking a sprier system. However, the deficiencies
          noted in most of the corrective action plans were primarly non- life- thatening. In
          a few States, deficiencies are grded for their degree of seriousness, thus
          faciltating close monitorig of homes with more significant problems.



          Almost all States report havig a complaints proedur in effect, although State
          stadads do not always address the requirement for such a procedure. In most
          cases the licensing agency itself receives complaints; only one- quarer of States
          report that the Ombudsman also receives them. Most States conduct onsite
          investigations in response to complaits; they investigate the more serious
          allegations alost imediately. As par of their proedures for resolving
          complaints, almost one- hal (47 percent) report having a resident hotline. The
          tyes of complaits cover a wide range,
                                             
      from poor foo and an unsanitar physical
          envinment to inadequate care and abuse or neglect. A number of providers
          asserted that their State s complaint procedure was always biased in favor of the
          consumer and offered the operators no recourse for their own grevances against
          residents.

Enforcement activity is limited.

           Respondents cited   th major factors to explain why constrints to enforcement
                                  resources inhibit the States ' abilty to actively enforce
           exist. Firt, lack of State
           their curnt stadads. Second, no statutory authority exists in many States to
           impose both intermedate and severe sanctions. Finally, the lack of alternative
           placement for boar and car residents makes it difficult to close homes and
           penalize unlcensed homes even when those sanctions ar avaiable.

           While most States (86 percent) are able to revoke or deny licenses, under half
           actualy did so in 1988. The average number of revocations or denials was 20.
           The problem was seen as not being with the avaiabilty of the sanction but with its
           use; one provider voiced a common concern that " States are reluctant to use what is
           available.

           Fort percent   of States imposed no penalties or sanctions on board and car homes
           in 1988. Of those which did, 15 imposed fines, 7 issued provisional licenses, 4
           issued citations, 4 limited or suspended admssion to homes, 2 used receiverships,
            1 initiated crmial charges against a provider and 1 cancelled a service contract.

           Closing homes and removing residents, the most severe penalty, was reported by
           only 11 States. One of these States with a separate enforcement unit reported
           closing 53 homes. However, the remaining 10 States closed from one to eight.
           number of respondents mentioned that they were often complacent in their
           enforcement activities and would wait for a situation to significantly deteriorate
           before takng action.
                  ...... . ...... . . ... ..... .... ....-""""""""""''''
                  ....................................................................................
                  ..............................              ..................................................
                                                                    ..........
                                                          ... ........                     ...""" . ...-...
                                                                                          ...
                  ................................................................................
                  ....................................................................                         -..........
                                                                                . ... .........................,
                                                                       .. .... ....                      .. . ...       - -..
                                                                                                                  ... -.....
                                                                                                                       ... ...
                                                                                               ....... .... ..- ....... ....




Enforcement options are limited.

          Slightly more than one- third of State standards alow for the intermediate sanction
          of civil monetar penalties, whie less than one- third prohibit admtting new
          residents to homes under citation. Just over one- thd of State standads allow for
          the more severe sanction of closing homes and removing residents (Figue III).
          Most States which do allow civil moneta penalties consider them very
          instrmental in minimzig substadard facilties and essential to the success of
          their enforcement efforts. Fines usualy go into the genera treasur, although
          few States use them for board and car activities.

                                    FIGURE III

                          ENFORCEMENT OPTIONS ARE LIMITED

          100




                  .. GO,' 
       ................ 37




            1O


                          Civil                Closing Homes                  Restrictng                    Addresing
                        Monetar                 & Removing                  Admission of                    Unlicensed
                        Penalties                Residents                  New Residents                   Facilities




           Many respondents stated that the legal process required to revoke licenses was
           often lengty and cumbersome. Thus, the absence of intermediate sanctions such
           as civil moneta penalties was seen as restrcting the enforcement capabilties of

           some States. Some respondents believed that prohibiting the admssion of new
           residents into homes while the legal proess is occurng would prevent placing
           more individuals into homes where conditions ar questionable. Only 17 percent
           of State stadads requir a criminal check for providers as par of their licensing
           procedure; even fewer require such a check for staff members.
         Over th- quarers of State respondents felt that constraints limited effective
         enforcement. Most frequently cited were limited staf, insufficient financial
         resources, a lengty legal process, and the absence of legal authority for
         intermediate sanctions. Since in most States board and care is not a separate
         budget item, it is not possible to determne the level of resources devoted to
         enforcement Two States report having separte enforcement units. Drastic
         measurs ar rarely used because inadequate funds frequently preclude expensive
         actions. A number of respondents mentioned that enforcement efforts were often
         hampered by political considerations. For example, local judges and law
         enforcement offcers might be reluctat to act against neighborhoo providers.


         Respondents did not agr on the most effective enforcement techniques.
         Recommendations included imposing civi monetar penalties, increasing State
         resources, improvig the strength of legal options and categorizing diferent levels
         of violations. Some see fmes as a deterrnt to non-compliance; others see them as
         a means of tang funds away frm where they ar most needed-to improve the
         home. Some provider responses reflect this dilemm. One stated, " it hurt when
         the pocketbook is hit " Others complained that fines were too excessive for minor
         problems which caused no dict har to the resident. When a license is revoked
         in some States, the home is allowed to continue operating as a boarding home and
         the residents may remai in the facilty. In other States, the home is closed and the
         residents always removed to other licensed locations. However, the lack of
         alternative facilties for placement is a problem as there is sometimes no other
         avaiable licensed home for residents to move to. Respondents mention residents
         rights as a consideration: residents may wish to stay in the home, even if it is
         determned to be unsafe and becomes unlicensed.

Unlicensed homes are a key enforcement concern.

          State efforts to deal with unlicensed facilties are restrcted by lack of resources and
          diculty in locating the homes. Most State offcials felt that their resources were
          not sufficient to deal with unlicensed as well as licensed homes. Respondents also
          had difficulty in estimating the number of unlicensed facilties in their States which
          should be licensed accordig to their definition of a board and car home.

          Ambivalence exists among respondents as to whether and how unlicensed facilties
          should be penalzed. Some States feel they should be immediately penalized while
          others feel the operators of these homes should first be given the opportnity to
          acquir a license. However, a majority of providers and advocates favored
          penalizing these operators. Some States ar reluctant to take action against
          unlicensed facilties because of a lack of alternative placement for the residents in
          these homes.
                                                  ""




         Avaiable SSA tapes are seldom used and ar not found useful. Only 41 percent of
         State respondents knew of the tapes, and very few (17 percent) reported using them
         to locate unlicensed facilties. Respondents generally felt that the tapes were of
         lited use and did not wart additional allocation of staff and resources.


          An analysis of existig                          how they are implemented
                                   enforcement techniques and
          showed no diect corrlation between the enforcement technique and the presence
          or absence of unlcensed facilties.

Concerns were expressed about the adequacy of enforcement.

          Two- thirds of providers and advocates felt that some problem with enforcement
          existed in their State. The majority felt enforcement was slow, inadequate,
          inconsistent and ignored. One provider, expressing a prevaiing view , said he
          would "like to see more emphasis on education and less on mechanical
          enforcement of stadads--ducation should be used in addition to fines. " A
          number felt their State was not strgent enough with unlicensed facilties and that
          operators of these facilties should always be fmed. Some providers and advocates
          complaied that the lengty proess for penalizing providers could potentially put
          residents at risk. Most agrd, neverteless, that such a process was essential.

          Half of the providers and advocates felt that the inspection process does not
          adequately ensure that standads are maitaed. They often caled it a paper
          proess in which evaluation was limited to checking off items on a list. A few
          State respondents mentioned a recent requirement for a resident interview during
          the inspection. However, one provider said that in practice this means that
          residents are asked over a loudspeaker to come and speak to the inspector if they
          want to. Many providers and advocates voiced concern about the inconsistency of
          how different inspectors interpreted regulations. State respondents also mentioned
          this as being a problem when inspections were delegated to county authorities.

          Close to hal of the State respondents felt that their States assign board and care a
          low priority in tenns of overal health care. An even greater number of providers
          and advocates (two- thirds) agred. Most argued that other progrs in the
          long-tenn care continuum, such as nursing homes, were regarded as more
          important As a result, resources allocated were not always adequate.

          A majority of State respondents felt the Keys Amendment could not be enforced.
          Only 17 percent clai to have reported substandard facilties to the Federal
          government as the Keys Amendment requires. Most felt that the penalty clause
          which reduces the benefits of SSI recipients was unenforceable. Some suggestions
          included: " Junk it and sta over again,   penalize the owners-not the residents,
          and " (requi) mandatory registrtion of SSI recipients residing in        board and care
          facilties. "

THE DHHS CURRENTLY PLAYS A LIMITED ROLE IN BOARD AND CARE AND
LITTLE COORDINATION EXISTS.

Activities afectig boar and care facilties and residents ar limted within      llS in OHDS,
SSA , AoA  NI      and HCFA , with litte coordation among these agencies.

Board and care activites are limited within HHS components.

          Within OHDS only one person is responsible for managing the Keys Amendment
          and collectig the requied inonnation from the States. A yearly OHDS
          memorandum remids States that they must certy annually that they comply with
          the Keys Amendment and includes inonnation on the Model Act and       SSNSDX
          tapes. Approximtely 30 States responded in 1988 with brief letters saying, in
          effect: "Ths is to inonn you that (State s name) is in compliance with the Keys
          Amendment. "



          No SSA procedurs are in place to implement the penalty provision of the Keys
          Amendment. While the Keys Amendment has a penalty provision which reduces a
          recipient s SSI payments if he or she resides in a substadard facilty, the
          prevailing opinion among people in the field is that deductig money from the SSI
          recipient s payment does not assure that conditions wil improve in the facilty.

          Due to lack of resources, the Admnistrtion on Developmental Disabilties (ADD)
          does not systematically monitor al developmentay disabled individuals who
          reside in board and car homes. However, ADD does have a protection and
          advocacy program for the developmentay disabled which may extend in pan to
          residents of board and care homes.

          Although board and car is now included in the AoA Ombudsman Program , no
          additional funds have been appropriated for this addtional responsibility. The
          extent to which local and State Ombudsmen become involved in board and care
          vares from State to State. The AoA has been diected to study the impact of the
          Ombudsman Program on residents of boar and car facilities , to develop
          recommendations for expanding and improving Ombudsman servces, and to study
          the effectiveness of recruiting, supervsing and retaiing     volunteer   Ombudsmen.
          This report wil be available by December 31 , 1989.

          The major pan of the  NI protection and advocacy program is to advocate for
          residents of public 24-hour   care facilties. In   1988 only 6 percent of the program
          clients were in facilties outside of public institutions. Some of these were board
          and care homes.


          Few States have taen advantage of the available SSA State data exchange tapes
          and many were not even aware that such tapes existed. A number of respondents
          requested informtion on how to obta these tapes after learng about them.

          As of August 1989, HCFA had approved 125 waiver programs in 47 States.
          HCFA is unable to identify how many of these waivers include servces for board
          and care residents. However, they do clai to ensur that each progr which
          indicates that it serves such recipients makes explicit provision for the welfar of
          these clients. HCFA also reports to have investigated and taken necessar action
          where there has been any indication brought to their attention that health and
          welfare has been compromised.

          On the positive side The Assistat Secretar for Planing and Evaluation (ASPE)
          is curently fudig a study entitled "Analysis and Comparson of State Board and
          Car Reguations and Their Effect on the Qualty of Care in Board and Care
          Homes. " Ths study wi attempt to determne the extent to which care in
          unlicensed homes difers from the care provided in licensed homes. They also
          anticipate doing a boar and care census in the futu.

Little coordination exits within HHS among the agencies involved with board and care.

          There appears to be lited contact between the varous agencies within HHS
          involved with boar and car; each unit fuctions independently and has little
          awareness of relevant activities occurg elsewhere in the Deparent.

          While the Keys Amendment specifies that the State must notify the SSA of any
          violations in board and car homes, it is not requird that OHDS be so notied, and
          the SSA does not share any such information with OHDS.

          No unit is designated within HHS for coordnating the activities of different
          agencies and disseminating information between them. Such a unit previously
          existed in the Deparent but has since been disbanded.

          Some coordiation does exist, however, between the different agencies involved
          with protection and advocacy programs for the mentally il , developmentally
          disabled and aged residig in board and car homes. These agencies will be
          meeting regularly to inform each other of their activities and to coordinate their
          efforts.
                                   RECOMMENDATIONS

States should

           Re-evaluate their board and care standads (using the Model Act as a reference) to
           assure they include and adequately address

                 level of car,

                 traing,

                 coordination , and

                 unlcensed facilties.


           Improve their abilty to deal with unlcensed facilties   such as



                 tagetig ways to identify them and

                 providig incentives for facilties to become licensed.


           Use such sanctions as

                 civi moneta penalties,

                 restrctions on new admssions, and

                 closing of homes.


           Assure that existing proedurs for resolvig complaints are sufficiently publicized
           so that complaints ar brought to the attention of the proper authorities.

To support States 'efforts in implementing the above recommendations, OHDS should
designate a unit for board and care which will

           Disseminate information on such matters as

                  operational effciencies


                  effective enforcement techniques
                  research and

                  States ' best practices.


           Promote more effective use of the Model Act
         Provide technical assistace to States, parcularly to support the concerns relating
         to the stadads and enforcement highlighted in this report. This might include
         convening a workgroup of States and other pares to discuss developing minimum
          stadads.

          Coordiate deparental    activities relative to board and care.

COMMENTS

Comments of the drt report were received from HCFA, ASPE , AOA , PHS, SSA and OHDS
and were generay supportve of our fidigs and recommendations. While support was
expressed for our recommendation that there be a Deparenta coordinating unit , the
question of fundig was raised by OHDS. (See Appendix B). We continue to believe the
problems addrssed in this report are suffciently importt to  wartthe relatively small
expenditu necessar to support a coordinating unit.
                                                         APPENDIX A

                                                     BIBLIOGRAPHY

American Association of Retied Persons (AARP). Selected papers from the conference on
board and car. December, 1978.

Boston University, School of Social Work.                    Preliminary Analysis of Title   Plans and State
                                                                                                      XX

Regulations for           574     Residential Facilities in 50 States and the District of Columbia.
Februar, 1980.



Commssion on Calorna State Governent Organization and Economy.                                             Community
Residential Care in California: Community Care As A Long Term Care Service.                                    December,
1983.

Commssion on Calorn State Governent                             Organization and Economy.                  The Little Hoover
Commission s Report on Community Residential Care For the Elderly.                                   Januar, 1989


General Accounting Offce (GAO).                    Board and Care: Insuffcient Assurances that Residents
Needs are Identified and Met.                Februar, 1989



Institute for Health and Agig. Residential Care Facilities: Understanding Their Role and
Improving Their Effectiveness. 1988.

Offce of Inspector General (OIG), Deparnt of Health and Human Servces (DHHS).
Board and Care Homes: A Stu of Federal and State Actions to Safeguard the Health and
Safety of Board and Care Residents.                 Apri , 1982.

Service Delivery Assessment, Deparent of                        Health, Education and Welfare.               Boarding
Homes Assessment.                 June, 1979.


Subcommttee on Health and Long-term Car,                         Report to        the House Select Commttee on
Agig.        Board and Care Homes in America: A National                          Tragedy.       Marh , 1989.
The American Bar Association, Commssion on Legal Problems of The Elderly and
Commssion on the Mentaly Disabled. 
                     A Model Act Regulating Board and Care Homes
Guidelinesfor States.                  October, 1982.

...




                                           APPENDIX B


                          COMMENTS ON THE DRAFT REPORT

Comments received from HCFA , ASPE , AoA, PHS, SSA and OHDS were generally
supportve of our fidigs and recommendations. Suggestions for changes in the wording and
clarfications in the text have for the   most par been incorporated into the fmal report.

Among the comments that were supportve of our recommendation that a Deparental
coordiatig unit for board and care be designated were the following: The Assistant
Secretar for Health noted that: ' 'Tugh technical assistace and dissemiation activities,
ths unit would have the potential to greatly improve the qualty of care and lie of individuals
  " Simarly, the Assistat    Secta    for Human Development Servces stated " that the
functions might be tiely, appropriate, and supportve of State actions given the real advances
in State performce over the past severa year and the Federal government s new federasm
relationship with States. " The OHDS adde that " such a unit might help meet Congrssional
concern that the Deparent addss identied abuses.

The ASPE specifcaly recommended that OHDS be designated as the Deparenta
coordiating unt for boar and care activities. We concur and have moded our report by
specifically addressing our reommendation to OHDS.

While as noted above OHDS expressed concerns about inadequate CUIent stang and
fundig, OHDS supports the idea of a coordiatig unit. We recognize that a coordiatig
unit would requir realocation of very scarce resources. However, in view of the importance
of this area we feel that such reallocation is necessar.

In addition, OHDS note that the Deparent          fuds very litte researh , has little information
to dissemiate and   possesses no   parcular expertse to offer technical assistace to the States.
We might offer, in response, that ths coordatig unit would be expected to disseminate not
only the Deparent s researh but also research conducted by other soures; would gather
and shar ideas and best practices frm the States; and would hopefully utiize the knowledge
of expert in the field in offering technical assistace.

The OHDS had some question about the substace of the proposed coordination role. Our
vision is that ths unit would be the focal point for board and car activities within the
Deparent. In doing so, it would serve as a refeITal source for outside requests, periodcaly
evaluate the effectiveness of Deparenta        progrs and make recommendations to improve
them.

In conclusion , we strongly encourage having a Deparental coordinating unit as essential to
supportg and encouraging the States ' efforts to assure the safety and well- being of the board
and car population. We believe OHDS should be given this role.

The actual comments received ar     on the following    pages.
                                &.




                                                                  Office of


     DEPARTME T OF HEALTH            Ht:MA   SER\"ICES	             Human Development Services


                                                                    Assistant Secretary
                                                                    Washington DC 20201
                  FEB I   199

::0 :	            Richard P. Kusserow
                  Inspector General

FROM:             Assistant Secretary
                    for Human Development Services

SUBJ ECT :	       Office of Inspector General Draft       Report: - Bogrd      and
                  Care, . OAI- 89-l860

Thank you for the opportunity to review and comment on the
draft Office of Inspector General (OIG) report on - Board and
Care.     Over ll, the report is timely, and we believe its
findings will inform future discussion on this               issue. It
contains information that will be helpful to this office in
carrying out its responsibilities under the Keys Amendment.
addi tion, we appreciate the briefing and the addi tional views
and information provided by OIG staff on January       However,
we do have serious concerns regarding the recommendation that
                                                               4.
the Secretary designate a unit for board and care in the
Department. We also have some general suggestions for
strengthening the report.
         Addi tional contextual information should be added to the
         report
         We suggest that the report incl ude the posi t i
         observations and other excellent points made by OIG staff
         at the January 4 briefing, e. g., that care being provided
         is much better than the pUblic s perception of such care
         and that states are trying and, for the most part, are
         succeeding in carrying out their responsibili ties in this
         area, particularly given the changing needs of the board
         and care population.
         Also, as additional background,        we suggest that a brief
         description of the range and types of homes and facilities
         included under the category of board and care be added, as
         well as a brief description of the various types of persons
         being served in these homes. We believe it is particularly
         important to emphasize that there is no common definition
         or description of a board and care facility and that board
         and care residents have 
        wide range of demographic

         character istics and      a wide  range of needs.

page 2 - Richard P. Kusserow

   Recommendations for state action


    Generally, we support the four recommendations for State

    action. We believe OIG has identified areas that would

    benefit board and care residents and allow for better State

    oversight and enforcement.

                                                             uni t

    Recommendation that the Secretary should designate a
    in the Department for board and care


    We agree that the functions recommended to be carried out
    by a designated board and care uni t might be timely,
    appropriate, and supportive of state actions given the real
    advances in State performance over the past several years
    and the Federal government' s new federalism relationship
    wi thstates.   Also, such a uni t might help meet
    congressional concern that the Department address
    identified abuses.    However, it is unclear how the specific
    recommendations for Federal research, technical assistance,
    and other acti vi ties could be implemented gi ven the cur rent
    lack of staff and funding for such activities in the

    Department. Our specific comments are as follows:
    a. The report stated that one function of the unit would be

       to disseminate information on matters such as

       operational efficiencies, effective enforcement

       techniques, research, and States      ' best practices.
       fact, the Department funds very little research and has
       almost no information to disseminate on the other
       objectives.
    b. A second function of the board and care uni t     would be to
                                                         Although
        promote more effective use of the Model Act.
       the report used the Model Act exclusively against which
       to measure state standards, there are other model
       standards and regulations which could or should be
       considered by States, e. g., model regulations developed
       by Boston Uni versi ty and a Model Act on Zoning for board
       and care residences developed by the Administration on
       Developmental Disabilities.

     c. A thi rdfunction of the board and care unit " would be
         provide technical assistance to States.
 As noted
        earlier, the Department has no particular expertise in

        this area and the Office of Human Development Services

        (HDS), for example, would need additional staff and

        fund ing to car   ry out such acti vi ties.
Page 3 - Richard P. Kusserow

    c. The fourth function of the board and care uni t would be
       to coordinate Departmental board and care acti vi ties.
       In reali ty, however, the Department carries out few

       meaningful activities in  this area.  Three agenci s make
       grants to States to carry  out advocacy and ombudsman
       services on behalf of board and care  residents and
       others.  The Social Security Administration is rarely
       involved as states chose to deal with facilities that do
       not meet standards by enforcement methods other than

       reduction of an individual' s Supplemental Securi
       Income (SSI) payment. The Health Care Financing
       Administration, by statute, must verify that Keys
       Amendment and other standards are met in order to grant
       state 8 communi ty based wai verso We administer
       compliance with Section 16l6(e) of the Social Security
       Act.  The Office of the Assistant Secretary for Planning
       and Evaluation has been involved in various long term
       care research and evaluation efforts and recently has
       funded a project to further study board and care

       issues. It is    unclear what the substance of the

       coordination is or should be.

       Finally, we agree it is important for the Department to

       respond to congressional concern on the board and care

       issue. As opposed to recommendations that would require

       additional staff and funding resources, we suggest that

       the OIG consider exi sting mechanisms, such as cur rent
       Departmental long term care and health promotion work

       groups, as a way to carry out sOme of these functions.

    Other points of clarification


    In addition to the marked-up copy (attached), we have the

    follo ing suggestions:


    a. Clarify that the report uses the term 8I unlicensed
                                                s
       refer to homes that fall under a state 
 standard for
       licensure, not those that are   exempt.  (See page ' 13.

    b. clarify that, while respondents recommended 8 national
       minimum standards, 8 they also recommended State
       flexibility in meeting or developing such standards.
        (See page 8.
                          8 A majori ty felt the Keys Amendment
    c. It is stated tha

       could not be enforced. 

                                8 It would be preferable to say
       that standards developed under the Keys Amendment could

        not be enforced. (See   page ii.

Page 4 - Richard P. Kusserow

    d. It is stated that . state regulations require that all
       board and care homes be licensed or certified.    This   is
        ncor rect. (See page 1.
    e. Clarify that although the Keys Amendment also included
       statutory amendments to the Social Security and SSI
       programs, historical usage and this report refer to
       Section l6l6(e) of the Social Security Act as the Keys
       Amendment.
    f. It is stated that . Fire and safety guidelines were also

       developed by an HHS interagency task force and shared
       wi th the States.   This needs further explanation. The
       fire and safety guidelines were the result of a ten year
       effort. A . Fire-Safety Evaluation System for Board and
       Care Homes . was incorporated in the Life Safety Code by
       the National Fire Protection Association. It represents
       a major development in the technology of providing board
       and care services. Cur rently, there is a large
       evaluation being conducted of this system which is being
       jointly funded by six Federal agencies.   (See page 3.
We believe the marginal notes and edits on the attached   copy of
the draft report are pelf explanatory. If  you have any
questions, please call Janet Hartnett on 245- 70 7.




Attachment
       :) .
                                                    \ :...
                                                                    ... "'."    . . """
                                                                                     ':," '                           '"




VIC"


               DEPARTMENT OF HEALTH 8L HUMAN SERVICES               ;.,z;
                                                                               //Ib
                                                                                        /I
                                                                                             ..,l
                                                                                               Office of the Secretary


                                                                            ; . Washington , D. C.
                                                  It '1
                                                     E l:;' ­
                                                                                                                     20201


                                                                                              ...., DIG 


                                                        rgSD   ". v "

                                                                    0.         I'                           AIG.
       JlMORAUK                                                                                             AIG­
                                                                                                            AIG.
                     Richard P. Kusserow                                                                    ADM


                     Inspector General                                                                      OGC/IG
                                                                                                            EX SEC


       FROM          Arnold R. To      ns   II                              DATE SENT
                     Acting Assi                 tary   for Planning and Evaluation

       SUBJECT:      OIG Draft Report:      "Board and Care" , OAI-02-89-01860


       We have reviewed the above report and conditionally concur based
       on consideration of the following observations:
                Al though ASPE worked closely with the OIG during this study,
                no mention is made of the board and care initiatives
                currently underway in ASPE. The report should cite the ASPE
                board and care initiatives which include the current quality
                of care study and the design work for a board and care
                census.  These activities demonstrate that the Department is
                more than just a passive observer of board and care issues.
                The report points out, and rightly so, that very little

                coordination exists within HHS among the agencies involved

                wi th board and care. However, as a result of the ASPE
                initiatives cited above, information sharing and
                coordination among agencies has improved.

                The tone of the report implies that all Unlicensed board and
                care homes are operating outside of the law and that if
                licensing was required of them, the system would somehow be
                much better. First, it should be made clear that not all
                unlicensed homes are operating illegally (some States have
                very limited licensing requirements). Second, although the
                quality of care provided in some unlicensed homes is

                suspect, there are many unlicensed homes that provide care
                equal too or better than that found in licensed homes. In
                some communities, unlicensed homes are an important part of
                the community-based care system. The issue is to determine
                the extent to which care in unlicensed homes differs from
                the care provided in licensed homes. The ASPE quality study
                will attempt to address this issue.
                References to the Keys Amendment of the Social Security Act
                should be clarified to explain that reductions to an S5I
                recipient I s payment can only be applied to that portion of
                the payment that is a State supplement and only by the
                amount of the supplement that is used for medical or
                remedial care. This adds to the intractable nature of
                employing the penalty provision of Keys.
Page 2 - Richard P. Kusserow



    Several references are made to the' SDX tapes and the
    feasibility of having states use them to locate unlicensed
    homes. These references need to be placed in a context that
    informs the casual reader of what the SDX tapes are, what
    their potential is for addressing the unlicensed homes issue
    and what problems are associated with use of the tapes.
    Again, the ASPE quality of care study will test the
    feasibility of using the tapes to locate unlicensed homes.

     One of the maj or recommendations of the study is that the

    Secretary designate a unit . for board and care. We concur
    with this recommendation. The next step, if others also

    concur, is to choose the location of such a             occurs
    to us that SSA' s invol vement is essentially as a check

                                                                           unit. It
    writing agency, HCFA' s interest is centered around the 2176

    Waivers, and ASPE is not a program office. On the other

    hand, OHDS includes AoA, which has responsibility for the

    ombudsman program and the aged constituency, which makes up

    the bulk of board and care residents, and ADD which

    administers programs for the developmentally disabled.

    Hence, our initial reaction is that the unit be located in

    OHDS. We would be interested in exploring this issue

     furter.
                                             Historv , it is
     On page 1, in the third paragraph under 


     implied that all state regulations require the licensing of
     board and care homes. This is not true.
     On page 2, under                            HHS Role   The first sentence should be
     modified by adding " or                           their residents" to the end of the
     sentence.
     On page 15, the ADD means the Administration 2R

     Developmental Disabilities.

                                           .. .
                                           .. .                                 //.. ...... '
                                                                                 "':         j)    ':!"" : "..    ?\..
                                                                                                            .. - ';.




           DEPARTMENT OF HEALTH II HUMAN SERVICES
                                                                                        ,k./
                                                                                       YmO
                                                                             / OficetO th Seetary

                                                                                                     'b                   -'7L
                                                                                                                  ,t4 bel-­


(1­        Administration on Aging	
                                                                              Wasington . D. C.
                                                                              8-.
                                                                               I.... l
                                                                                       "'"       ;. vL'
                                                                                                1.;
                                                                                                           20201



                                                                                                . ,. L.. 


                                                                               1990 JAN I 0 



                                                                      JAN	    8 19 

                                                                                                             1r
                                                                                                                  2: 25


           TO:	                 Richard P. Kusserow

                                Inspector Gener 


           FROM:                Acting Commissioner on Aging
                                                                                                  Board
           SUBJECT:	            Comments on Draft Inspection Report Entitled "
                                and Care

                                                 8, 198 memorandum to Mary

           This is in response to your December Buman Development Services,

           Sheila Gall. Assistant Secretary for draft inspection report

           requesting review and comment on the

           entitled " Board and Care.
                            he draft report and concur with its findings

           We have reviewed 


           and recommendations. We suggest only the following changes and

           additions:
                                p. ii ,     7th line from the bottom , should be changed to
                                              Ombudsman Program w ch advocates the rights
                                read                                                   (The
                                of the 
    institutionalized elderly including....
                                Older Amer cans Act requires the State Office  of the

                                                                             or on

                                ombudsman to investigate complaints made by

                                                                      facilities,   not

                                behalf of residents of long term care 

                                all elderly.


                                 page 2, l ine 5 und er BBS Role , should administered
                                                                             be changed to

                                                                                          by

                                 read                NIMH ) h ave programs 	
                                                               tio   which....                  (Neither,
                                 State agencies or organiz

                                 ADD, AoA, nor NIMH dIrectly operate their respective

                                 protectio and advocacy programs.
                                 The report should mention a study
                                                                        funded. by the
                                                                                  (ASPE)
                                 Assistant Secretary for Planning and Evaluation
                                 entitled " Analysis and Comparison of State Board and
                                 Care Regulations and Their Effect  on the Quality of
                                                               " which is currently

                                 Care in Board and Care Bomes.

                                 being conduct d by Research Tr iangle Institute. This
                                 is a major Department initiative involving board and
                                 care regulation. ASPE should be mentioned on page 15


 DIG

 AIG­

 AIG-AI

  AIG­

  ADM

. OGCIIG
                                  ~~~



Page 2 - Richard P. Kusserow


          and elsewhere, and reference to the study should be
          made at appropriate places in the report.

We appreciate the opportunity to review and comment

                                                    on the draft
report.
                                                                                  .' :"




                                                             Health Ca'

          DEPART;\E T OF HEALTH &.   Ht..\\AS   SERVICES     FinanCing Ac"" " ,



"."410                                                       Memorandum
   Date

   From    ::S 2    :S

          Acting Admini

                                     ii
   Subject OIG Draft Report - Board and Care, OAI-02-89-01860
          The Inspector General

          Office of the Secretary


             Thank you for the opportunity to review your draft report

          which assesses existing State board and care regulations and

          enforcement activities.


             The report states that HCFA is unable to identify how many
          of the approved waiver programs include services for board and
          care residents. While this is true, HCFA does ensure that each
          program which indicates that it serves such recipients makes
          explicit provision for the welfare of these clients. HCFA has
          also investigated and taken necessary action where there has
          been any indication that health and welfare has been
          compromised. We want to ensure that OIG is aware of the
          following HCFA initiatives that help accomplish these aims.
                   Since the inception of the waiver program in 1981,
                   States have been required to provide assurances that

                   the health and welfare of clients will be protected

                   during their participation in the program. The States
                   are also required to back up these assurances with
                   copies of written provider standards and  anual reports
                   on the satisfaction of these requirements.

                   In our 1985 final regulations, we specifically required

                   that states providing waiver services to individuals

                   who were residents of board and care facilities ensure

                   compliance with section 1616(e) of the Social Security

                   Act (Keys Amendment) and supply a copy of the required
                   standards to us for          review. In
                                                   addition, our
                   regulations authorized the withholding of Federal

                   matching funds for wai r services during periods of

                   noncompliance with the Keys Amendment or other he l th
                   and safety standards.
Page 2 - The Inspector General


  HCPA has conducted intensive regional office investigations
  of several programs in which allegations were made that
  recipient health and welfare were being compromised while
  residential waiver providers. In West Virginia, HCFA used
  the results of this inquiry to deny the state' s application
  for renewal of its waiver program. In Pennsylvania and
  Oregon, corrective action was promptly initiated by the
   states.
   I would also note that on page 2 of the report,   " nurs ing
facili ty.applies only to Medicaid, not Medicare.

   Than you   for the opportunity to review the above draft
report.
::::::
 ,...	                                                                           ...
                                                                                 ....':   ,..',. :­ "
                                                                      aAW	                              (,1\

                                                           N tJ.. 



               DEPARTMENT OF HEALTH Sa HUMAN SERVICES	                       Public Health Service

                                                            7z/7             Memorandum
    Date                 JA 2 2      199

    From	      Assistant Secretary for Health
               and Acting Surgeon General
    Subject	    OIG Analysis and Inspections Draft Report " Board and Care
                OAI -0   2-89-01860
                Inspector General, OS



                We are in agreement with the overall content of the subject

                OIG draft report and concur with the report s recommendation

                that the Secretary, RUS, should designate a board and care

                unit to support the States ' efforts in implementing the

                recommended improvements. Through technical assistance and

                dissemination activities, this unit would have the potential

                to greatly improve the 
 uality of care and life of individuals

                residing at boarding homes.





                                           Jame   . Mason, M. D., Dr.




                          DIG
                          AIG-A
                          AlG-AI                                                 "':1

                          AIG-l
                          ADM
                          OGCIIG
                          EX SEC 


                           DATE SENT
. -'--                                            &.   =-                  ~~~U1b                          ..-
                                                                                                           .,
                                                                                                           (:'..,)..   .:-




              UUJART.'\UNT 01. HEALTH 	
                                                                                 uV
                                                                                                   ')d
                                                                                             Social Security Administration
                                                       HlIMAN SERVICES 

                                                                                "?I
4-'	          Refer to                                                                       Memorandum
 Date:

 From:


  Subject:	       ff ce of Inspector General Draft                         Report, " Board    and Care
                  OA -02-89-01860) --INFORMTION
  To:           Mr. Richard P. 	                usserow
                Inspector General



                Attached is our response to the draft report.
                           If we can be of

                further assistance, please let us know.

                Attachment:
                Tab I - SSA response





                                   IG                           v =

                                   PDIG

                                   DIG-AS

                                    DIG-EI 

                                                       =- V
                                    DIG- OI 

                                    AIG.	                                                                  r''l
                                                                                                           c-J. '
                                        OG/IG



                                                 NT
                                    How to use these separators
          Look for your reference letter. The far left column designated " TAB" will indicate
          proper tab position for that number or letter. Cut off and discard all tabs except the one
          you wish to retain. Example: Position number " 10" would be found behind the fourth
          tab. Position letter " C" would be found behind the third tab.




                                  TAB                 (CHOOSE YOUR TAB)

                                  FIRST


                                  SECOND


                                  THIRD


                                   FOURTH


                                   FIFTH


                                   SIXTH

   r-­
                                   SEVENTH




                                   TAB                 (CHOOSE YOUR TAB)

                                   FI RST           98 91 84 77 70 63 56 49 42 35 28 21

                                   SECOND           99 92 85 78 71 64 57 50 43 36 29 22 15

                                   THIRD           100 93 86 79 72 65 58 51 44 37 30 23

                                   FOURTH               94 87 80 73 66 59 52 45 38 31 24 17

                                   FIFTH                95 88 81 74 67 60 53 46 39 32 25 18 11

                                   SIXTH                96 89 82 75 68 61 54 47 40 33 26 19 12

                                    SEVENTH             97 90 83 76 69 62 55 48 41 34 27 20 13




TABBED SEPARATOR SHEET
Form SSA- 69 (10- 791
COMMENTS OF THE SOCIAL SECURITY ADMINISTRATION ON THE OFFICE OF
INSPECTOR GENERAL DRAFT REPORT, " BOARD AND CARE" OAI-02-8901860


In this inspection, the Office of Inspector General (OIG)
assessed existing State board and care regulations and
enforcement activities. The inspectors found serious weaknesses
in existing State standards and enforcement practices and found
support for the establishment of national minimum standards.
They also found that the Department of Health and Human Services

plays a limited role                              in     board and care.
OIG' s recommendations were directed to the States and to the
Secretary. Among   those for the States               States               were: that
reevaluate their board and care standards, and improve their
ability to identify and deal with unlicensed facilities. The
inspectors recommended that the Secretary should designate a
uni t for board and care which will disseminate information and
provide technical assistance. to . States, promote more effective
use of the Model Act for Regulating Board and Care Homes and
coordinate Departmenta1 activities relative to board and 

                                                                                              are.
Al though none                   of OIG' s recommendations are directed toward the
Social Security Admnistration                      (SSA), we appreciate the
opportunity to revie                                   the report.
Technical Comments

We have the following general comments to offer concerning

certain sections of the report dealing with Social Security:

           First, on Page 15 of th report OIG notes that " No SSA

           procedures are in place to implement the Keys Amendment"

           This statement is inaccurate since procedures have been

                                      he Keys Amendment and may be found
           promulgated to implement 


           in our Program Operations Manual System, GN 00502.       These                   120.
           procedures provide that substandard facilities be reported

           to SSA' s Regional Offices. The Regional Offices are

           responsible for disseminating the lists of substandard

            facilities to SSA field offices to be screened as part of the
            representative payee selection process to ensure benefits are
            not inappropriately directed to these                             facilities.
           We assume that the statement in the report that SSA has no

           procedures to implement the Keys Amendment is related to the

           lack of SSA procedures to implement the penalty provision of

           the Keys Amendment, contained in section 1616 (e) (4) of the

           Social Security Act. This is true, primarily because the

           penal ty provision is basically inoperable because of a flaw

           in its construction. The law states that when a Supplemental

           Security Income (SSI) recipient resides in a substandard

           facility the individual' s title XVI payments should be

reduced by an amount equal to the amount of any State
supplementary payment or other State or local payment which
is made for or on account of any medical or remedial care
provided by the            facility.     States do not include money for
medical. or remedial           care  in   their supplementary payments or,
as we understand            it, in  other    payments. In addition, board
and care homes ordinarily are not involved in the provision
of the type of care specified in section 1616 (e) (4). Thus,
it seems fair to say that 
           it   is virtually impossible to

implement this sanction.
Furthermore, the provision is not workable because it hurts
the recipient directly and the operator only indirectly at
best.  Conceivably, if SSA reduced the SSI benefit, the
operator could get less, or could evict the recipient and get
a new resident. Chances are it would do the             latter.
                       is
Our second observation 
   a minor technical point found on

Page 1 of the executive summary. Paragraph 2, line 3 under

 Background" should read . Supplemental Security Income

 ( SS   I) . . . R .
Other miscellaneous technical comments and observations have

been made on a mark-up copy of the report and provided to OIG

staff under separate cover.

APPENDIX C


  CHARTS





    C - 1

                                . FORCE                                   TI 

STATE                  CORRECTIVE   INSPECTED   REVOKE/DENY   CIVIL   CLOSE    RESTRICT UNLICENSED   CRIMINAL
                       ACTION       HOMES       LICENSE       MONETARY HOMES   ADMISSION HOMES       CHECK
                                                              PENALTY                    ADDRESSED
Alabama/1
Alabama1
Alaska
Arizona
Arkansas
California
Colorado/1
Colorado/2
Connecicut
Delaware
District of Columbia
Florida
Georgia
Hawaii
Idaho
Ilinois
Indianal1
Indiana1
 lowa/1
 lowa/2
 lowa/3
Kansas/1
Kansasl2
Kentuckv/1
Kentuckvl2
Louisiana
Maine
Marvland/1
Marvland/2
Marvland/3
Massachusetts
Michiaan/1
Michiganl2
Minnesota

S. INSTANDARDS         y- YES
E. ENFORCED
                                                                                                                                                                   Enforcement Options
                                   CORRECTIVE              INSPECTED            REVOKE/DENY                 CIVIL    CLOSE                        RESTRICT UNLICENSED        CRIMINAL
STATE
                                   ACTION                  HOMES                LICENSE                     MONETARY HOMES                        ADMISSION HOMES            CHECK
                                                                                                            PENALTY                                         ADDRESSED
Mississicci
Missouri
Montana
Nebraska
Nevada
New Hamcshire
New Jersev/1
New Jersevl2
New Mexico
New York
North Carolina
North Dakota
Ohio/1
Ohio/2
Oklahoma
Oreaon/1
Oreaonl2
Pennsvlvania
Rhode Island
South Carolina
South Dakotal1

South Dakota1
T ennessee/1
Tennesseel2
Texas
Utah/1
Utah/2
Utah/3
Vermont/1
Vermontl2
Virginial1
Virginia1
Washinaton/1
Washinatonl2
West Virginial1
West Virainia1
Wisconsin
Wvomina
. The above information is based on analyzing existing State standards & discussions with State offcials. States   may   have other statutory authority to take.
          tate onf                                      lanc                       ith                    el ct                     . tan ards
              Definition   Size   Bord &      Admission Resident                   Health   Fire   Training   Ucnsing   Unlicensed Varance   Inspectons Complaints   Sacts
State                                                              Quti Strcture
                                  Care Plan             Riahts                                                          Homes
Alabamal1
Alabamal2
Alaska
Arizona
Arkansas
California
Coloradol1
Coloradol2
Connecticut
Delaware

Florida
Georaia
Hawaii

Idaho
Ilinois

Indianal1

Indianal2
lowal1
lowal2

lowal3
Kansas/1
Kansas/2
Kentuckv/1
Kentuckv/2
Louisiana
Maine
Marvlandl1
Marvlandl2
Marylandl3
Matt
Michiaanl1
Michiaanl2

Minnesota




. = yes

empty box = no
                                                                                                           State Agency Conformance with Model Act Standards

                                 Size   Board &     AdmissionE Resident   Quifiti   Strcture   Health   Fire   Training   Licensing   Unlicensed Variance   Inspections Complaints Sanctions
State               Definition
                                        Care Plan              Riahts                                                                 Homes
MississiDoi

 Missouri
. Montana
. Nebraska
Nevada

New      Hamosil

New Jersey/1
New Jersey/2
New Mexico
New York
Nort Carlina

Nort       Dakota

Ohiol1
Ohiol2
Oklahoma
Oreaon/1
Oreaon/2
Pennsvlvania
 Rhode Island
 So Carina
 s. Dakotal1

 S. Dakotal2
 Tennesseel1
 Tennesseel2
 Texas
 Utah1

 Utah2
 Utah3
 VermonV1

 VermonV2

 Virainial1
 Virainial2
 Washinaton/1
 Washinaton1
 W. Virainial1
 W. Virainial2

 Wiscnsin

 Wyomina



          = yes
empty box = no
         .........::::::
                     ,., .......
::::::::::::::::::::;::            ...., ::::.........                     ""' """:::
                                                ::::: ::: ::::::::::::;;::::::::::::::::
                                                                ':'                              """   ...      .;:::;::::::  """""
                                                                                                                         ';':' ::::::::: ::::::: ::;:::::::::;;:::
                                                                                                                                                      "':' ':' ":'::::::::::::;:;:::::::'::::::::::::::::::::::::::;:::::::::$::':::::::::::::::::::::::::::::::;:::':::;:::::::::::::::::::::::
                                                                                                                                                                                 ':' ';'         ':"      ':':' ":'        ':' ':' ':' ":. .:.            -:::::::
                                                                                                                                                                                                                                                            ~~~~~
                                                                                                                                                                                                                                                            ..:.;.:
                                                                                                                                                                                                                                                             ~~~
                                                                                                                                                                                                                                                             ::::::
                                                                                                                                                                                                                                                             ~~~~~~
                                                                                                                                                                                                                                                             ~~~~
                                                                                                                                                                                                                                                              ~~~~~
                                                                                                                                                                                                                                                              ~~~
                                                                                                                                                                                                                                                               ~~~




                                                                                                                                                                                                                                                    1 1J                         lH


                       KEY OF MULTIPLE LICENSING AGENCIES                                                                                                                                                                                     u aUHH





     Alabama/1                                                     Dept. of Health
     Alabama/2                                                     Dept. of Menta Retardation                                                                                                                                                             ilil
     Colorado/1                                                    Dept. of Health
      Colorado/2                                                   Dept. of Social Services                                                                                                                                                               II1I


      Indiana/1                                                    Dept. of Health
      Indiana/2                                                    Dept. of Menta Health                                                                                                                                                                  1111

      lowa/1                                                       Dept. of Human Services
      lowa/2                                                       Dept. of Human Services                                                                                                                                                                1111

      lowa/                                                        Dept. of Inspections and Appeals
      Kansas/1                                                     Dept. of Health and Environment                                                                                                                                                        ilf!l


      Kansas/2                                                     Dept. of Social Services and Rehabiltation
      Kentucky/1                                                   Cabinet for Human Resources
      Kentucky/2                                                   Cabinet for Human Resources
       Maryland/1                                                  Dept. of Human Resources
       Maryland/2                                                  Ofice on Aging

       Maryland/3                                                  Dept. of Health
       Michigan/1                                                  Dept. of Social Services
       Michigan/2                                                  Dept. of Public Health
       New Jersey/1                                                 Dept. of Community Affairs
       New Jersey/2                                                 Dept. of Health
       Ohio/1                                                       Dept. of Human Services
       Ohio/2                                                       Dept. of Housing                                                                                                                                                                       iii

       Oregon/1                                                     Dept. of Human Resources, Senior Services Div.
       Oregon/2                                                     Dept. of Human Resources, Mental Health Div.
       Tennessee/1                                                  Dept. of Menta Health and Mental Retardation
       Tennessee/2     Dept. of Health and Environment
       Utah/1          Dept. of Social Services
       Utah/2          Dept. of Social Services, Div. of Aging & Adult Servo
       Utah/3          Dept. of Health
       Vermont/1       Dept. of Health
       Vermont/2       Dept. of Human Services
       Virginia/1      Dept. of Social Services, 4 or more Residents
       Virginia/2      Dept. of Social Services, 1- 3 Residents
       Washington/1 Dept. of Social and Health Services
       Washington/2 Dept. of Health                                                                                                                                                                                                                         iil
       West Virginia/1 Dept. of Social Services
        West Virginia/2 Dept. of Health                                                                                                                                                                                                                      IIII




                      ::::::::;::::X:::::;:::::                             ::::::x:       x;::";:.:x*:*:.:;x
